   AUDIT OF LOAN PROCESSING AND
     DISPOSITION PROCEDURES
SOUTHWEST BANK, JENNINGS, LOUISIANA



         Audit Report No. 99-044
           November 24, 1999




         OFFICE OF AUDITS

   OFFICE OF INSPECTOR GENERAL
Federal Deposit Insurance Corporation                                                       Office of Audits
Washington, D.C. 20434                                                          Office of Inspector General




   DATE:                         November 24, 1999


   MEMORANDUM TO:                Mitchell Glassman, Acting Director
                                 Division of Resolutions and Receiverships



   FROM:                         David H. Loewenstein
                                 Assistant Inspector General


   SUBJECT:                      Audit of Loan Processing and Disposition Procedures
                                 Southwest Bank, Jennings, Louisiana
                                 (Audit Report Number 99-044)


   The Office of Inspector General (OIG) recently completed an audit of the loan processing and
   disposition procedures followed by the Division of Resolutions and Receiverships (DRR) for
   loans acquired from the failure of Southwest Bank, Jennings, Louisiana. On June 9, 1999,
   Senator Kay Bailey Hutchison contacted the OIG and asked that this office pursue two matters
   related to the failure of Southwest Bank. First, she asked that the OIG determine whether the
   FDIC followed all applicable procedures in the processing and disposition of past due loans for
   farmers in the Sulphur Springs, Texas, area. Second, she requested that the OIG review whether
   any fraudulent activity by bank employees was responsible for a number of loans that were made
   to persons in the Sulphur Springs area and have since gone into default. On June 18, 1999, the
   OIG responded to the Senator’s office that a team of auditors and investigators would address the
   issues she raised.


   BACKGROUND

   Southwest Bank began operations in 1961 under the name of Allen State Bank in Oakdale,
   Louisiana. Operations were eventually relocated to Jennings, Louisiana, and the name of the
   institution was changed to Southwest Bank in 1992. Southwest Bank’s problems began in 1990
   when control of the institution changed. At that time, the bank began aggressively originating
   farm loans, many of which were 90 percent guaranteed by the Farm Service Agency (FSA) of
   the United States Department of Agriculture. (FSA was previously known as the Farmers Home
   Administration.) In 1993, Southwest Bank opened a loan processing office in Sulphur Springs,
   Texas, and began actively originating guaranteed agriculture loans in that area. At the time of
   failure, approximately 89 percent of Southwest Bank’s loans were agriculture related.
During 1996 and 1997, federal and state bank regulators monitored Southwest Bank’s financial
condition and required the bank to develop a plan to address its capital deficiency. The bank
submitted a plan; however, the plan never materialized because of the ongoing litigation between
the bank and FSA related to the loan guarantees. On November 21, 1997, the FDIC was
appointed receiver for the failed Southwest Bank. The deposits and some other assets were
assumed by First Southwest Bank, a newly chartered bank. The Commissioner of Financial
Institutions for Louisiana attributed the bank’s failure to losses on out-of-state agriculture loans
guaranteed by the FSA. Many of the guarantees were discounted or forfeited, because prior bank
management did not comply with all requirements of the FSA guarantees.

The FSA guarantees were affected to a certain extent by fraud in the loan application process. A
Southwest Bank loan officer admitted that he and a former FSA county supervisor conspired to
submit and approve a total of 28 fraudulent loan applications before the county supervisor’s
retirement. After retirement, the former county supervisor was hired by Southwest Bank. The
loan officer also admitted to submitting an additional 77 fraudulent guaranteed loan applications,
which were approved by the new FSA county supervisor. The new county supervisor was
unaware of the fraudulent information on the applications. The loan officer performed these
fraudulent acts from 1993 through 1994.

Because of the fraudulent loan applications, FSA filed two claims with FDIC as receiver for
reimbursement of 41 loan guarantees paid by FSA. The FDIC denied these claims, attributing
some blame to FSA through its former employee. Borrowers from the Sulphur Springs area also
submitted claims to FDIC as receiver relating to the handling of their loans by both the failed
bank and the FDIC. The FDIC has either denied the claims or taken no final action. Some of
these borrowers contacted Senator Hutchison’s office to express their concerns over the FDIC’s
actions related to DRR processing the loans and selling the loans to private investors.

OBJECTIVES, SCOPE, AND METHODOLOGY

As a result of Senator Hutchison’s request, we performed an audit of DRR’s processing and
disposition of certain loans received in the failure of Southwest Bank. In addition, based on
information received during the initial survey phase of the audit, we expanded the scope of our
review of DRR’s receivership activities to include their managing of the receivership claims
receipt and review process. The objective of our audit was to determine whether DRR properly
processed and disposed of loans the FDIC received after the failure of Southwest Bank. The
scope of our audit was limited to loans made to farmers in the Sulphur Springs area.

As part of the audit fieldwork, Office of Audits’ staff met with senior management of DRR in
Washington, field staff in DRR’s Dallas office, the current FSA county supervisor in Sulphur
Springs, and some of the borrowers. We have obtained and reviewed information regarding the
failure of Southwest Bank, the FSA’s guaranteed loan program, and the bank and FDIC’s files for
selected loans and claims. Since the FDIC sold some of the loans in bulk sale packages, we also
visited two of the purchasers and discussed their experiences in the resolutions of these assets.



                                                 2
Investigative efforts have been handled separately by the OIG Office of Investigations. The OIG’s
Office of Investigations is coordinating with the United States Department of Agriculture Office of
Inspector General, which has an ongoing investigation into the matter.

According to information maintained by DRR, FDIC received 187 loans from Southwest Bank at
the time of the institution’s failure. These loans had a book value of nearly $20 million. As of
June 29, 1999, the status of these loans was as follows:

          Action                   No. of Loans                 Book Value

        Restructured                    21                     $ 1,557,253
        Written off                     47                       3,474,027
        Sold                            66                       9,755,211
        Being marketed                  48                       3,191,493
        Settlement process              22                       2,078,064

        Total                          2041                    $20,056,048

Of these loans, 49 were made to borrowers in the Sulphur Springs area. The breakdown of the
Sulphur Springs loans was as follows:

         Action                         No. of Loans            Book Value

        Chapter 7 bankruptcy                     8              $ 1,051,873
        Active bankruptcy                       16                1,602,781
        Reduced to judgment                      6                  702,094
        Paid off/settled                         4                  434,468
        Litigation                              11                1,131,744
        Negotiations                             4                  990,810

                Total                           49              $ 5,913,770

From this list, we judgmentally selected a sample of 29 loans for review. The loans sampled had
been received by 16 borrowers. These loans had a book value at the time of failure of $3.8
million. The sample included loans from each category.

In addition, we reviewed 11 of the 32 claims filed against the receivership. Of the 11 claims
reviewed, nine were filed by borrowers from the Sulphur Springs area, and two were filed by
FSA. Eight of those nine borrowers had loans that were included in our sample of loans. The
amount of claims sampled, $61,381,980, accounted for more than 99 percent of the amount of
claims filed, $61,445,204. Each of the claims reviewed involved an FSA-guaranteed loan.


1
 The total number of loans is greater than the number received because a loan may fall in more than one
category.

                                                     3
We conducted the audit from June 1999 through August 1999 in accordance with generally
accepted government auditing standards.


RESULTS OF AUDIT

The audit of the bank files and asset files available from DRR showed that DRR had followed
standard procedures in the processing and disposition of loans received from the failure of
Southwest Bank. Each borrower was contacted by DRR and was provided the name of an
account officer to contact about the loans. The bulk sale of these small loans was conducted
within DRR guidelines. DRR met and negotiated with each borrower who expressed any
interest. Of the 16 borrowers in our sample, 10 of them negotiated with either the FDIC or the
private investor and all but one reached a settlement of their debt. We were unable to find any
support for the borrowers’ allegation that either Southwest Bank or the FDIC had contributed to
their business failures.

None of the 11 receivership claims we reviewed was approved by DRR for payment. The majority
of the 21 remaining claims were for legal services provided to Southwest Bank before failure. DRR
approved part or all of 19 of the remaining 21 claims, issuing receivership certificates for 8 of the
approved claims. All of the claims sampled were denied following review by the Legal Division,
which considered both information filed by the claimant and information available in the bank file
and the FDIC asset file. Our review of the claim files did not reveal any material noncompliance
with the claims procedures. DRR’s decision to deny the claim was supported by the information
submitted by the claimant or available from the bank and asset files.

Because we found no material noncompliance with DRR policies and procedures, we are making
no formal recommendations as a result of our audit.

The sections that follow explain the responsibilities of each of the key parties involved in the
loans received by the borrowers in the Sulphur Springs area. Both Southwest Bank and DRR
had specific responsibilities associated with the origination, servicing, or disposition of the loans.
In addition, DRR had receivership claims responsibilities that involved some of the Sulphur
Springs borrowers. We have also included a section related to the economic conditions existing
at the time of the events in question, as we believe that these conditions had a direct impact on
the borrower’s operations and expectations.


SOUTHWEST BANK’S RESPONSIBILITIES

Prior to the failure, Southwest Bank had the primary relationship with each borrower. We divided
Southwest’s actions into two categories: loan application and loan servicing.




                                                  4
Loan Application Process

Overall, there was no indication that any fraudulent practices in the loan application process had
harmed the borrowers. As of August 1999, none of the borrowers had been charged with filing a
false loan application. Also, none of the borrowers alleged that they did not receive all their loan
funds.

Southwest Bank achieved certified lender status with the FSA in Louisiana, which was
reciprocated by Texas when the bank branched into east Texas. As a certified lender, Southwest
Bank had a greater level of autonomy in approving loans for participation in FSA’s guaranteed
loan programs. Certified lenders evaluated the financial information of the borrower and the
quality of the security pledged. FSA relied on summaries of this information to make its
guarantee decisions. FSA would review a sample of information supporting the loan application
to ensure the quality of the information provided by the bank.

According to the current FSA county supervisor we interviewed, the 16 borrowers responsible
for the 29 loans we selected were marginal loan candidates. He said that this was not unusual
since FSA is a “lender of last resort” and expects to take greater risks with the loans made. For
example, 12 of the borrowers we sampled used their Southwest Bank loans to refinance existing
debt. Normally, this would be an indication of a poor risk for a loan. However, the county
supervisor stated that this is not an automatic disqualification in the guaranteed loan program but
an indication of special servicing needs.

There were instances when the FSA asked for additional information on a particular application.
The county supervisor stated that this was not because the agency believed there was anything
wrong with the data submitted; rather it was a clarification of a point or an acknowledgement of
the special servicing needs of a particular borrower. Some of the borrowers whose loans we
sampled were the unknowing subjects of fraudulent applications made by the former Southwest
Bank employee. However, the county supervisor stated that he did not believe the fraudulent
actions on the part of the bank employee had actually harmed the borrowers. It was the county
supervisor’s position that the fraudulent actions on the part of the bank employee had, in fact,
aided the borrowers by enabling them to receive loans for which they would not otherwise be
eligible.

Loan Servicing

The files reviewed in our sample contained evidence of poor servicing on the part of Southwest
Bank. There was incomplete follow-up of correspondence, gaps in contacts between the bank
and the borrower, irregular status reporting to FSA, and outdated borrower financial data.
However, there was no indication that this poor servicing contributed to the business failures of
the borrowers. The FSA county supervisor averred that the poor servicing actually aided the
borrowers by allowing them to continue their businesses longer than otherwise possible. Again,
he believed that the harm was actually to the FSA since the poor servicing affected the quality of
collateral securing the loans and may have increased the loss paid on the guarantee. In some
cases, the poor servicing resulted in a reduction of the guarantee, which may have increased the

                                                 5
FDIC’s loss. In either case, the harm was not to the borrowers but to the taxpayers and the
insured institution.


DRR RESPONSIBILITIES

The FDIC has a statutory responsibility to the creditors and shareholders of a failed bank to
minimize losses by obtaining maximum recovery from the assets of the receivership. In
reviewing DRR’s actions with respect to the loans received from Southwest Bank, the OIG
divided DRR responsibilities into four areas: borrower relations, asset file maintenance, asset
disposition, and receivership claims.


Borrower Relations

The account officer stated that each borrower was contacted by the FDIC when the loan files
were returned from the interim servicer. A letter was sent in February or March 1998 explaining
that the bank had failed and that all future contact should be with one of the account officers
named. The letters contained direct phone numbers for both of the account officers. DRR
provided us a list of the borrowers contacted and a copy of the letter sent to each. Ten of the
borrowers provided requested documentation or entered into negotiations with the FDIC or the
private investor who purchased the loan in a bulk sale and all but one were able to reach a
satisfactory resolution of their debts. The other six borrowers did not cooperate with the FDIC
by providing the financial and tax information required to initiate settlement negotiations.


Asset File Maintenance

DRR’s Asset Disposition Manual contained guidance on information to be included in the asset
files maintained by the account officers. The manual also contained guidance on handling loans
guaranteed by FSA. According to the Asset Disposition Manual, the asset file should contain the
following information:

•   loan agreements,
•   notice to the borrower with FDIC contact information,
•   contact with FSA immediately following the bank closing,
•   requests for and receipt of financial information from the borrower, and
•   documentation of all FDIC actions in disposing of or resolving the asset.

In addition, the account officer was required to establish a file in the Credit Notation System
(CNS) for each asset assigned to him. The CNS is a central system for tracking the assets while
they are the responsibility of the FDIC. Asset information from the account officer and from
other divisions within the FDIC resides in CNS.



                                                 6
We reviewed the FDIC’s asset file for each loan sampled. In no case did we find an incomplete
asset file at DRR. Each file contained a copy of the borrower’s promissory note and a record of
the actions taken by DRR once the loan had been received from the failed bank. The account
officer was able to provide us with a report from the CNS for each loan. This system
documented DRR’s action in resolving the asset, as well as DRR correspondence with other
divisions within the FDIC.


Asset Disposition Methods

The Asset Disposition Manual also established DRR’s business plan for resolving assets received
from a bank failure. For most classes of nonperforming loans, it is DRR’s policy to package
immediately for bulk sale any loan with a book value of less than $250,000. Of the 29 loans
selected for review, 25 of them had book values below this threshold. The 4 remaining loans had
book values ranging from $262,300 to $290,000. DRR policy is to package loans over $250,000
for bulk sale within 180 days of acquisition. Although the borrowers from Sulphur Springs,
Texas, objected to the FDIC selling their loans, these loans were rightly packaged for bulk sale.
We did not review the loan packaging and sale process. There were no allegations made that this
process was in any way improper.


Receivership Claims

We reviewed 11 of the 32 claims filed against the receivership. None of the claims reviewed were
approved for payment. The majority of the remaining 21 claims were for legal services provided to
Southwest Bank prior to failure. DRR approved part or all of 19 of the remaining 21 claims, issuing
receivership certificates for 8 of the approved claims.

Only 3 of the 11 claims reviewed were filed using the FDIC Proof of Claim form. The other claims
were filed using a form designed by the claimant. All of the claims sampled were denied following
review by the Legal Division which considered both information filed by the claimant and
information available in the bank file and the FDIC asset file. Five of the claimants were involved
in litigation with the bank at the time of failure. In six cases, the FDIC asked the claimant to
provide additional information, but only one claimant complied with this request. Our review of the
claim files did not reveal any material noncompliance with the claims procedures. DRR’s decision
to deny the claim was supported by the information submitted by the claimant or available from the
bank and asset files.


ECONOMIC CONDITIONS

We asked the FSA county supervisor about other circumstances which may have negatively
affected the borrowers’ operations. He said that the economy had a significant impact on the
situation. From 1993 forward (the time when many of these loans were first made), dairy
farmers were caught in a price squeeze between declining milk income and increasing feed costs.

                                                 7
Statistics published by the State of Texas Agricultural Statistics Service showed that for the
period from 1993 through 1997 that feed costs rose about 18.7 percent per 100 pounds fed, while
milk prices only increased about 3 percent per 100 pounds produced. In 1995 there was a
nationwide grain shortage and feed prices in 1996 rose precipitously by 34.3 percent. Milk
prices only went up 16.2 percent in 1996. The combination of rising costs and fairly stable
income levels was the major problem facing the borrowers, according to the county supervisor.

The county supervisor also stated that some of the borrowers may have had unreal expectations
about the dairy farming business. He believed that some of the borrowers thought that they could
“get rich” milking cows. He explained that Hopkins County is a historically successful dairy
area and some local families may appear wealthy. However, such perceived wealth is related to
their position of having little or no long-term debt on their farm land and operations. This was
not the situation for most of the Southwest Bank borrowers. The county supervisor estimated
that 75 percent of all milk income is used to maintain the herd. This leaves 25 percent for all
other farm expenses, family living expenses, and debt service. Such income does not allow a
borrower to incur extensive outside debt.


CORPORATION COMMENTS AND OIG EVALUATION

Because we are making no formal recommendations, DRR was not required to make a formal
response to this report. However, the results of our audit were discussed with DRR management
on October 7, 1999, and they agreed with the report’s contents.




                                               8
